     September 16, 2002




   Financial Management

   Allegation to the Defense Hotline on
   the Use of Funds by Navy Region
   Southeast
   (D-2002-147)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

O&M                   Operations and Maintenance
QOLED                 Quality of Life Enhancement, Defense
STARS                 Standard Accounting and Reporting System
         Office of the Inspector General of the Department of Defense
Report No. D-2002-147                                               September 16, 2002
  (Project No. D2001FC-0190)

           Allegation to the Defense Hotline on the Use of Funds
                         by Navy Region Southeast

                                Executive Summary

Who Should Read This Report and Why? The Commander, Navy Region Southeast
(region) accounting and budgeting personnel who provide program and strategy
execution assistance for Navy commands should read this report. Those involved with
any aspect of financial data management will want to make sure that financial reports
accurately reflect the official appropriation information.

Background. The audit was performed in response to a complaint made to the Defense
Hotline. The complainant alleged the region misused $4.4 million and that the money
was expensed from the Pine Castle activity, a bombing range in central Florida. The
complainant also stated that when a large discrepancy between money appropriated and
money expensed was shown in the region database, a work-around was programmed in
an attempt to correct the funds discrepancy. A discussion of the Defense Hotline
allegation (the allegation) and conclusions is in the finding section of this report.

Results. We did not substantiate the allegation that the region misused $4.4 million.
Navy Region Southeast management controls of appropriated funds were adequate in that
we found no material weaknesses in the administration of appropriated funds.

Management Comments. We provided a draft of this report on June 21, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                             i

Background                                    1

Objectives                                    2

Finding
     Use of Navy Funds                        3

Appendixes
     A. Scope and Methodology
          Scope                               5
          Methodology                         5
          Management Control Program Review   6
          Prior Coverage                      6
     B. Report Distribution                   7
Background
    Hotline Allegation. The audit was performed in response to a complaint made to
    the Defense Hotline. The complainant alleged that Commander, Navy Region
    Southeast, Commander in Chief, U.S. Atlantic Fleet (region) misused
    $4.4 million. See the finding section for a complete discussion of the allegation.

    Role of the Region. The region is responsible for financial management of nine
    operational and five support commands within the Department of the Navy.
    Before FY 1999, each command was responsible for its individual financial
    management. Since 1999, the region, as the regional coordinator, has led the
    combined financial management efforts of the 14 commands, providing program
    and strategy execution assistance for command appropriations, and for reporting
    the status of funds.

    Financial Systems. The Department of the Navy uses the Standard Accounting
    and Reporting System (STARS) as its official accounting system. STARS is an
    interactive, real-time accounting system that provides for processing and
    reporting of general fund accounting functions. The region developed a database
    to serve customers that did not have remote access to STARS.

              Standard Accounting and Reporting System. STARS processes
    accounting transactions, prepares standard financial reports, and processes and
    pays invoices. The STARS system is composed of several sub-systems. STARS-
    Field Level is the sub-system used for field level unit accounting. STARS allows
    users on-line access to their financial data, thus giving them the ability to perform
    interactive processing and queries.

              The Region-Developed Financial Database. The region-developed
    financial database (the region database) generates a funds status report that is
    available to customers through the Internet. The region database was designed
    in 1999 for Operations and Maintenance (O&M) Appropriation fund holders
    within the region. The region database is not an official accounting system and
    therefore does not post to an official accounting record. However, the region
    database allows customers without STARS access to view the status of their
    funds. Information is taken from three sources to generate an unofficial funds
    status report within the region database. The three sources are:

                 •   appropriation authorizations from the local spending plan,

                 •   accounting transactions downloaded from STARS, and

                 •   special funds and special projects status maintained locally.




                                          1
    Pine Castle. Pine Castle is a bombing range in central Florida funded from the
    O&M Appropriation 1804, subhead 60CA. The status of Pine Castle funds was
    available through the region database. Pine Castle was allocated a total
    of $250,000 for operations in FY 1999 through O&M Appropriations. The
    money was to maintain the bombing range and pay salaries of the small staff
    resident at Pine Castle.

    Quality of Life Enhancement, Defense. The Quality of Life Enhancement,
    Defense (QOLED) Appropriation 0839 provides funding for base operations and
    improvements. QOLED funding for the region began in FY 1999 under subhead
    60CA. The money was used for repairs and renovations at the various
    commands.


Objectives
    Our objective was to evaluate the possible misuse of Navy funds and questionable
    accounting adjustments by the Navy. We also evaluated the management control
    program as it relates to the audit objective. Appendix A discusses the audit scope
    and methodology and our review of the management control program.




                                        2
             Use of Navy Funds
             The complainant alleged that the region misused $4.4 million. The
             complainant noticed an over-obligation of $4.4 million in the region
             database for the Pine Castle activity. Later, a work-around was
             programmed into the region database to allow an entry to correct the
             $4.4 million. Consequently, the complainant concluded that the region
             misused the $4.4 million and covered the trail of funds within the region
             database. We did not substantiate the allegation.

             •   The region appropriately expensed appropriated dollars.

             •   The Pine Castle activity was never allocated and did not obligate or
                 expend $4.4 million.

             •   The large discrepancy between money appropriated and money
                 expensed was an error reflected in an unofficial accounting system. A
                 work-around was programmed into the region database but it did not
                 affect the official accounting record.

             The allegation raised by the complainant does not warrant further action.
             The allegation and audit results are discussed below.


Audit Results
    Allegation. The allegation that the region misused $4.4 million was not
    substantiated. The complainant identified the O&M appropriation 1804 as having
    questionable adjustments. When we reviewed STARS data and appropriation
    documents, it became evident that the expenses in question were made from the
    QOLED appropriation 0839, not the O&M appropriation 1804. We confirmed that
    the expenditures fulfilled the intent of the QOLED appropriation 0839.

    The query for data from STARS did not specify an appropriation symbol.
    Consequently, data from the two different appropriations merged where they shared
    a common data element, subhead 60CA. The merged data was imported into the
    region database and displayed as O&M appropriation 1804. The STARS query
    was faulty in that it did not specify the appropriation symbol. Therefore, the region
    database reflected a $4.4 million discrepancy between money appropriated and
    money expensed in O&M appropriation 1804. We confirmed that the STARS
    query was corrected for FY 2002.

    Pine Castle Funds. We confirmed that Pine Castle was not authorized the
    $4.4 million and did not obligate or expend money in excess of their allocations.
    The funds shown as being over-obligated in the region database did not belong to
    Pine Castle. A query error caused QOLED obligated funds, Appropriation 0839, to
    appear allocated to Pine Castle. Pine Castle O&M funds, Appropriation 1804, and
    QOLED funds, Appropriation 0839, were both expended as allocated.



                                          3
The Region Database Adjustment. When a $4.4 million discrepancy between
money appropriated and money expensed was shown in the region database it
appeared a questionable accounting adjustment had been made. We determined
that no adjustment was made. However, a work-around feature was programmed
in the region database in an attempt to correct the $4.4 million discrepancy. The
work-around feature brought the unofficial region database into balance with the
official accounting record but did not change actual funds or the official accounting
record. The work-around feature was removed from the region database for
FY 2002.

Conclusion. Although the complainant concluded that the region misused
$4.4 million and covered the trail of funds within the region database, the
allegation was not substantiated. Further action is not required.




                                      4
Appendix A. Scope and Methodology

Scope
    Work-Performed. The allegation was thoroughly examined and the results
    summarized. We traced funding authority and examined budgeting and
    accounting documents at the region. We reviewed FY 1999 and FY 2000
    program execution using STARS data. We identified accounting and budgeting
    procedures and systems used through interviews with key region personnel.


Methodology
    We reviewed the statement provided by the complainant and held a telephone
    interview with the complainant to clarify issues relating to the allegation. We
    reviewed applicable laws, regulations, policies, and procedures, related to the
    allegation. We also obtained an overview of the flow of region funds.
    Specifically, we interviewed region budgeting and accounting personnel to trace
    funding authority for the O&M Appropriation 1804 and QOLED
    Appropriation 0839. In both appropriations, we concentrated on transactions
    citing Subhead 60CA. Budgeting and accounting documents were examined for
    FYs 1999 and 2000 for the subject appropriations.

    We identified all relevant accounting and budgeting systems utilized and their
    role at the region. We determined the use of each system through document
    examination and interviews with region personnel. At the completion of the
    survey, we determined that additional audit work was not required based on the
    survey results.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data from STARS to identify expenses, obligations and
    allotments. Although we did not formally assess the reliability of the computer-
    processed data, the source documentation agreed with the computer-processed
    data. We did not find any errors that would preclude the use of the computer-
    processed data to meet the audit objectives or that would change the audit results.

    Audit Dates and Standards. We performed this audit from September 2001
    through June 2002 in accordance with generally accepted government auditing
    standards. Accordingly, we reviewed the management control program as it
    related to the audit objectives.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD.




                                         5
Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. Our review of the
    region management control program was limited to answering the allegation. We
    reviewed region management controls over fund administration. Because we did
    not identify a material weakness, we did not assess the adequacy of
    management’s self-evaluation.

    Adequacy of Management Controls. The region management control program
    for funding administration was adequate as it related to the audit objectives.


Prior Coverage
    During the past 5 years, the General Accounting Office, IG DoD, and Naval
    Audit Service performed no audits related to the possible misuse of funds by the
    region.




                                        6
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                           7
Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Raymond D. Kidd
Linda A. Pierce
Laura J.S. Croniger
Kimberly L. Misener
Catherine Bird
